      AUDIT REPORT

 U.S. Fish and Wildlife Service
  Federal Assistance Grants
      Administered by the
Commonwealth of Pennsylvania,
  Fish and Boat Commission,
  from July 1, 2002, through
         June 30, 2004




      Report No. R-GR-FWS-0009-2005
                      September 2005
               United States Department of the Interior
                         OFFICE OF INSPECTOR GENERAL
                                      External Audits
                            12030 Sunrise Valley Drive, Suite 230
                                   Reston, Virginia 20191



                                                                            September 1, 2005
                                   AUDIT REPORT

Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Andrew Fedak
           Director of External Audits

Subject:   Final Audit Report on the U.S. Fish and Wildlife Service Federal Assistance
           Grants Administered by the Commonwealth of Pennsylvania, Fish and Boat
           Commission, from July 1, 2002, through June 30, 2004 (No. R-GR-FWS-0009-2005)

        This report presents the results of our audit of costs claimed by the Commonwealth of
Pennsylvania, Fish and Boat Commission (Commission), under its Federal Assistance grants
from the U.S. Fish and Wildlife Service (FWS). The audit included claims that totaled
approximately $28.3 million on FWS grants that were open during the Commission’s fiscal years
ended June 30, 2003 and 2004 (see Appendix 1). We also reviewed the Commission’s
compliance with certain regulatory and other requirements, including those related to the
collection and use of fishing license revenues and the reporting of program income.

        We found that the Commission’s annual license certifications were not accurate because
individuals who held more than one fishing license were counted more than once. We also found
that the Commission did not follow Commonwealth guidelines for placing identification tags on
computer equipment.

        The FWS Region 5 response dated August 12, 2005, concurred with Recommendation A
regarding license certifications and is gathering additional information from the Commission
regarding Recommendation B on property tags. We summarized the FWS and Commission’s
responses after the recommendations and added our comments regarding the responses. The
status of the recommendations is summarized in Appendix 3.
        In accordance with the Departmental Manual (361 DM 1), please provide us with your
written response to the recommendations included in this report by December 1, 2005. Your
response should include the information requested in Appendix 3. If you have any questions
regarding this report, please contact me at 703-487-5345 or Mr. Tom Nadsady, Audit Team
Leader, at (916) 212-4164.

cc:   Regional Director, Region 5, U.S. Fish and Wildlife Service




                                               2
                                        Introduction
The Dingell-Johnson Sport Fish Restoration Act (Act) 1 authorizes the U.S. Fish and Wildlife
Service (FWS) to provide Federal Assistance grants to states to enhance their sport fish
programs. The Act provides for FWS to reimburse the states up to 75 percent of the eligible
costs incurred under the grants. It also specifies that state fishing license revenues cannot be
used for any purpose other than the administration of the state’s fish and game department.

Scope, Objective, and Methodology
We performed our audit at the Pennsylvania Fish and Boat Commission (Commission)
headquarters in Harrisburg, Pennsylvania. The audit work at the Commission included claims
that totaled approximately $28.3 million on FWS grants that were open during the
Commonwealth’s fiscal years (SFYs) ended June 30, 2003 and 2004 (see Appendix 1). We also
visited a regional office, 3 fish hatcheries, 1 maintenance shop, and 17 boat access facilities (see
Appendix 2). The objective of our audit was to evaluate:

              ¾ the adequacy of the Commission’s accounting system and related internal
                controls;
              ¾ the accuracy and eligibility of the direct and indirect costs claimed under the
                Federal Assistance grant agreements with FWS;
              ¾ the adequacy and reliability of the Commission’s fishing license fees collection,
                certification, and disbursement processes;
              ¾ the adequacy of the Commission’s asset management system and related internal
                controls with regard to purchasing, control and disposal; and
              ¾ the adequacy of the Commission’s compliance with the Act’s assent legislation
                requirements.

We performed our audit in accordance with the Government Auditing Standards issued by the
Comptroller General of the United States. Accordingly, we included such tests of records and
other auditing procedures that we considered necessary under the circumstances. Our tests
included an examination of evidence supporting selected expenditures charged by the
Commission to the grants, interviews with employees to ensure that personnel costs charged to
the grants were supportable, and a review of the Commission’s use of fishing license revenues to
determine whether the revenues had been used for the administration of the Commission. We
did not evaluate the economy, efficiency, or effectiveness of the Commission’s operations.




1
    As amended, 16 U.S.C. § 777.




                                                  3
Prior Audit Coverage

On November 4, 2002, we issued audit report No. 2003-E-0002, “Advisory Report on Costs
Claimed by the Commonwealth of Pennsylvania Fish and Boat Commission, under Federal Aid
Grants from the U.S. Fish and Wildlife Service from January 1, 1996 through December 31,
1997.” We followed up on all significant recommendations and found that all recommendations
were resolved and implemented.

In addition, the Commonwealth of Pennsylvania Office of the Budget, Comptroller Operations,
issued a Single Audit report on the Commonwealth of Pennsylvania for SFY 2003. The Sport
Fish Restoration Program was not considered a major program and none of the reported findings
impacted the Commission’s Federal Assistance grant program.



                                   Results of Audit
We found that:

   ¾ The Commission’s accounting system and related internal controls adequately and
     accurately accounted for grant and license fee receipts and disbursements.
   ¾ The direct and indirect costs were accurately reported and claimed.
   ¾ Except for the issue in finding A, the Department’s fishing license fees collection,
     certification, and disbursement processes were adequate and reliable.
   ¾ Except for the issue in finding B, the asset management system was adequate for
     identifying and tracking personal and real property with regard to acquisition, control,
     and disposal.
   ¾ The State had adequate legislation that assented to the provisions of the Act and
     prohibited the use of license fees for anything other than the administration of the
     Commission.

However, we found that:

   A. The Commission’s annual license certifications to FWS were not accurate because
      individuals who held more than one fishing license were counted more than once.
   B. The Commission did not apply identification tags on its computer equipment, as required
      by the Commonwealth regulations.


A. License Certifications
The numbers of fishing license holders reported by the Commission in its license certifications
for license years 2001 and 2002 were likely overstated because individuals who purchased more
than one fishing license during the year were counted more than once.




                                               4
According to 50 CFR § 80.10 (c) (5), “The State fish and wildlife director, in certifying license
information to the [U.S. Fish and Wildlife Service] Director, is responsible for eliminating
duplication or multiple counting of single individuals in the figures which he certifies.” In
addition, the FWS Manual section 522, paragraph 2.7(1) provides, “States may use a statistical
survey to eliminate duplicate counting of licenses that they may issue to a person. They should
conduct a new survey at least every 5 years, or sooner if there has been a change in the license
structure.”

We found that the Commission did not have a process for identifying individuals who had
purchased more than one fishing license during the year and ensuring that those individuals were
counted only once in the license certifications. For example, an individual who purchased two
3-day “tourist” licenses and subsequently an annual nonresident license for the remainder of the
year would likely be counted as three license holders.

A Commission official stated that he misinterpreted the regulations and considered each license
sale unique, and that although the Commission did not count reissued licenses for those that were
lost, they believed multiple sales to a single individual was not duplication. In addition, the
Commission’s manual process for managing license sales cannot readily be used to identify
duplicate license holders, and the Commission has not developed a statistical method to
eliminate duplicate holders.

The calculation of the annual state apportionment of FWS Sport Fish Restoration Program funds
is based, in part, on the number of license holders. Therefore, accurate counts are necessary to
assure that each state receives its fair share of funds.

       Recommendation
       We recommend that FWS require the Commission to develop and implement procedures
       for the elimination of duplicate or multiple license holders.

       Commission Response
       The Commission stated that past audits and reviews have determined that the frequency
       of repeat buyers is extremely low and that it would not be cost effective or economically
       feasible to identify a handful of duplicate license buyers. The Commission anticipates
       implementing an automated license sales and distribution system by the 2008 license
       season.

       FWS Response
       FWS stated that it concurs with the recommendation.




                                                5
       OIG COMMENTS

       The Commission’s response did not include documentation supporting its comments on
       the frequency of repeat buyers and costs effectiveness of performing a statistical survey.
       Although FWS concurred with the recommendation, additional information is needed
       concerning the actions taken or planned to resolve the finding and implement the
       recommendation. This information should be included in the corrective action plan.


B. Property Tags
The Commission did not follow Commonwealth guidelines on assigning agency property tag
numbers and placing them on computer equipment. Based on our interviews of Commission
officials and our review of the computer inventory listing, we determined that the inventory
listing generally did not contain identification numbers to identify a specific item on the list as
Commission property.

The Governor’s Office Manual M245.4, Policy for Personal Computer and Network Chapter III
states, “All hardware must have an agency inventory identification tag.” Department officials
stated they were not aware of this requirement and that they used the equipment serial number as
an alternative. However, serial numbers were only documented for 33 of the 353 items on the
computer inventory and serial number do not meet the requirement to identify the owning
agency. The use of property identification numbers and tags is an important internal control for
managing personal property effectively.

       Recommendation
       We recommend that FWS ensure that the Commission has adequate inventory controls in
       place for managing its computer equipment which conform to the requirements in the
       Governor’s Manual and/or the Commission’s procedures, as appropriate, based on a
       determination of whether the Commission is subject to the Governor’s Office Manual.

       Commission Response
       The Commission stated that it is an independent commission and is not subject to the
       policies and management directives issued by the Governor’s office. The Commission
       also stated that it has its own hardware and inventory control system.

       FWS Response
       FWS stated that it is gathering additional information from the Commission regarding the
       recommendation.




                                                  6
OIG COMMENTS
Based on the Commission’s comment that the Governor’s Office Manual does not apply
to the Commission, we have revised the recommendation. As such, the finding is
considered unresolved and the recommendation unimplemented. Additional information
is needed concerning the Commission’s response. This information includes support for
the statement that the Commission is not subject to the requirements in the Governor’s
Office Manual and a detailed description of the Commission’s own inventory
management system, including the controls in place to ensure the integrity of that system.
This information should be included in the corrective action plan, which should also
identify the actions taken or planned to resolve the finding and implement the
recommendations.




                                        7
                                                                                                    Appendix 1


              PENNSYLVANIA FISH AND BOAT COMMISSION
              FINANCIAL SUMMARY OF REVIEW COVERAGE
                         JULY 1, 2002 THROUGH JUNE 30, 2004

                Grant                                Grant                             Claimed
                Number                              Amount                              Costs*
                F-30-D-39                          $1,942,000                          $1,750,198
                F-30-D-40                           2,112,000                           1,905,428
                F-30-D-41                           2,208,000                           1,867,280
                F-57-R-25                           4,111,950                           5,320,145
                F-57-R-26                           5,048,000                           4,715,299
                F-57-R-27                           5,200,000                           4,724,897
                F-61-T-22                           1,360,000                           1,438,041
                F-61-T-23                           1,415,000                           1,367,029
                F-61-T-24                           1,326,000                           1,424,005
                F-69-E-14                             480,000                            459,305
                F-69-E-15                             446,000                            381,599
                F-69-E-16                             425,000                            483,124
                F-71-R-13                             286,000                            286,535
                F-71-R-14                             294,000                            300,806
                F-71-R-15                             298,000                            280,918
                F-74-D-12                           2,100,000                            998,398
                F-74-D-13                           2,584,000                            599,087
                                                 $31,635,950                       $28,302,094
∗
    Includes the amounts recorded during the audit period, including indirect costs.




                                                            8
                                                 Appendix 2


PENNSYLVANIA FISH AND BOAT COMMISSION
            SITES VISITED

                  Regional Offices
                   Pleasant Gap

                  Fish Hatcheries
                  Benner Springs
                     Huntsdale
                   Pleasant Gap

                 Maintenance Shop
          Maintenance Area IV, Speedwell Forge

               Boat Access Facilities
                 Auburn Dam Access
               Bald Eagle Creek Access
                   Falmouth Access
                  Five Locks Access
        Frenchville Station Canoe Access Area
                  Good Hope Access
               Hyner Hand Launch Area
             Long Pine Reservoir Access
                    Marietta Access
             Muskrat Spring Access Area
                  North Bend Access
        PA State Flaming Foliage Canoe Access
                Speedwell Forge Lake
        Susquehanna River Access (Columbia)
             Thompsontown Access Area
                 Walker Access Area
                  Wrightsville Access




                         9
                                                                                 Appendix 3


       PENNSYLVANIA FISH AND BOAT COMMISSION
                      STATUS OF AUDIT FINDINGS
                       AND RECOMMENDATIONS


Recommendations            Status                             Action Required

      A           Management Concurs;           Provide a corrective action plan that
                  Additional Information        identifies the actions taken or planned to
                  Needed                        resolve the finding and implement the
                                                recommendation. The plan should also
                                                include the target date and the official
                                                responsible for implementation of the
                                                recommendation. If the recommendation is
                                                not implemented at the end of 90 days (after
                                                December 1, 2005), it will be referred to the
                                                Assistant Secretary for Policy, Management
                                                and Budget for resolution and/or tracking of
                                                implementation.

      B           Finding Unresolved and        Provide a corrective action plan that
                  Recommendation Not            identifies the actions taken or planned to
                  Implemented                   resolve the finding and implement the
                                                recommendation, as well as the basis for any
                                                disagreement with the recommendation. The
                                                plan should also include the target date and
                                                the official responsible for implementation of
                                                the recommendation. If the recommendation
                                                is not implemented at the end of 90 days
                                                (after December 1, 2005), it will be referred
                                                to the Assistant Secretary for Policy,
                                                Management and Budget for resolution
                                                and/or tracking of implementation.




                                           10
